                              INDEPENDENT ACCOUNTANT’S REPORT
                             ON APPLYING AGREED-UPON PROCEDURES


May 1, 2008

To the Audit and Review Committee of the Board of Regents:

Cotton & Company LLP has performed the procedures enumerated below, which were agreed to by the
Smithsonian Institution Office of the Inspector General (OIG), solely to assist you in determining if
travel, office, entertainment and other expenditures incurred by the former Chief Executive Officer (CEO)
of Smithsonian Business Ventures (SBV) were reasonable in the context of a business expense related to
the SBV mission. The SBV Chief Financial Officer (CFO) was responsible for identifying the
transactions included in the Schedule of Expenditures of the Office of the CEO.

We conducted this agreed-upon procedures engagement in accordance with attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these
procedures is solely the responsibility of those parties specified in this report. Consequently, we make no
representation regarding the sufficiency of procedures described below either for the purpose for which
this report has been requested or for any other purpose.

OBJECTIVES

1.      Review reconciliation of the Schedule of Expenditures for each fiscal year to the year-end general
        ledger, identifying the accounts included in the Schedule and any adjustments to those accounts.

2.      Test 50 transactions from similar accounts not included on the Schedule of Expenditures to
        determine if those expenditures should have been included on the Schedule.

3.      Determine if transactions included on the Schedule of Expenditures were properly accounted for.

4.      Determine if transactions included on the Schedule of Expenditures were valid business expenses
        related to the SBV mission or not incurred in accordance with SBV policies and guidance.


BACKGROUND AND SCOPE

The Audit and Review Committee of the Board of Regents requested an independent third-party review
of the former SBV CEO’s expenditures. The Smithsonian contracted with Cotton & Company to test the
Schedule of Expenditures for Fiscal Years (FY) 2006 and 2007, which details the transactions identified
by the CFO of SBV.




                                                     1
The former CEO terminated his employment with SBV on August 1, 2007. The Schedule of Expenditures
represents travel, office, entertainment and other expenses charged to the former CEO’s accounting unit
during FY 2006 and 2007, and identified by the OIG for testing.

To meet the requirements of this agreed-upon procedures engagement, Cotton & Company reviewed
schedules prepared by the SBV CFO as well as supporting documentation. In addition, we reviewed
policies and procedures, references, handbooks, and memorandums provided by SBV as guidance to
assist us in addressing the agreed-upon procedures. A comprehensive list of policies and guidance is
provided in Appendix A. We provided periodic status updates to the IG and SBV staff as well as the draft
report documenting agreed-upon procedures results.

SBV identified 237 transactions totaling $430,300 in the Schedule of Expenditures. We requested
supporting documentation for these expenditures, as well as a sample of 50 expenditures from similar
accounts totaling $105,055. Documentation provided to support expenditures included Citibank
statements, vendor invoices, receipts, journal entries, cash book payments, and expense reports.

AGREED-UPON PROCEDURES AND RESULTS

A-1. Trace transactions for each fiscal year from the Schedule of Expenditures to the general
ledger. Identify all SBV expense accounts and/or transactions that are not included in the Schedule
of Expenditures.

We obtained SBV’s reconciliation of the transactions included in the Schedule of Expenditures to its
general ledger and income statement, and traced all amounts to these records. We identified CEO
business unit expenses and expenses for other business units that were not included in the Schedule of
Expenditures because these were not expenditures made on behalf of or to the former CEO. We used this
population to select a sample of 50 additional expenditure transactions for testing as described in A-2.

A-2. Trace 50 expenditure transactions that were not included in the Schedule of Expenditures,
to source documentation and identify any transactions that were made on behalf of, or to the CEO.

From the universe of excluded CEO business unit expenditures, we tested 50 excluded expenditure
transactions totaling $105,055 to source documents. We did not identify any transactions made on behalf
of or to the former CEO.

A-3. Trace all expenditures reported on the Schedule of Expenditures to source documentation
and determine if expenditures were properly accounted for. Document all exceptions.

The Schedule of Expenditures included $430,300 of the former CEO expenditures incurred from October
1, 2005, through September 30, 2007. We traced these transactions to source documentation. SBV could
not provide sufficient source documentation to support $23,970 of expenditures as follows:


        •       Documents provided for $15,134 included evidence of a business purpose, but did not
                include receipts. These expenditures are classified as inadequately supported, because
                receipts were not provided, although a business purpose was provided (see Schedule
                B-1).

        •       Documents provided for $85 included receipts, but did not include evidence of a business
                purpose. These expenditures are classified as inadequately supported, because a business
                purpose was not provided, although receipts were provided (see Schedule B-1).


                                                    2
        •       Documents provided for $8,751 did not include evidence of a business purpose and did
                not include receipts. The expenditures are classified as inadequately supported, because
                business purpose and receipts were not provided (see Schedule B-1).


A-4. Review supporting documentation for all transactions and identify expenses not fulfilling
the Smithsonian mission or not incurred in accordance with Smithsonian policies and guidance
provided by Smithsonian staff. Document all exceptions.

We identified expenditures of $5,045 that did not appear necessary to fulfill the SBV mission or were not
incurred within limits prescribed by SBV policies. We therefore identified these expenditures as
unauthorized. SBV policies and guidance provided to us are identified in Appendix A. Detail for these
expenditures and the reason why each was identified as unauthorized are provided in Schedule B-2.

B-1.    Obtain a management representation letter from SBV management to confirm to the best of
their knowledge that representations were accurate and pertained to the period under review.

We obtained a management representation letter from current SBV management. We did not obtain
management representations from the CEO, because he is no longer employed at SBV.

We were not engaged to and did not conduct an examination, the objective of which would be the
expression of opinions on the schedules described in the first paragraph. Accordingly, we do not express
such opinions. Had we performed additional procedures, other matters might have come to our attention
that would have been reported to you. This report is intended solely for the information and use of the
Office of the Inspector General, the Smithsonian, and SBV and is not intended to be and should not be
used by anyone other than these specified parties.

COTTON & COMPANY LLP



Sam Hadley, CPA, CGFM
Partner




                                                    3
                  APPENDIX A

REFERENCE MATERIAL AND GUIDANCE PROVIDED BY THE
           SMITHSONIAN INSTITUTION
                                           APPENDIX A
                   REFERENCE MATERIAL AND GUIDANCE PROVIDED BY THE
                              SMITHSONIAN INSTITUTION



Smithsonian Directive (SD) 312, Travel, May 23, 2005

Smithsonian Institution Travel Handbook, May 23, 2005

SBV Travel and Expense Reporting Guidelines, Issued June 2006




                                                 4
             APPENDIX B
SCHEDULES OF INADEQUATELY SUPPORTED
  AND UNAUTHORIZED TRANSACTIONS
                                       SCHEDULE B-1
                                 SCHEDULE OF INADEQUATELY
                                  SUPPORTED TRANSACTIONS




Fiscal
Year     Reference             Vendor              Amount              Status of Support
2006     082206EXPE   2308Gary M. Beer              $198.00     no receipts
2006     091206EXPE   2308Gary M. Beer                226.60    no receipts
2006     102405EXPE   2378Citibank Govt Card          506.00    no receipts
2006     111405EXPE   2378Citibank Govt Card          688.60    no receipts
2006     121505EXPE   2378Citibank Govt Card          258.00    no receipts
2006     011006EXPE   2378Citibank Govt Card          554.80    no receipts
2006     020806EXPE   2378Citibank Govt Card          315.75    no receipts
2006     030906/BEE   2378Citibank Govt Card          656.00    no receipts
2006     051506/BEE   2378Citibank Govt Card        2,424.57    no receipts
2006     102405EXPE   2378Citibank Govt Card          329.59    no receipts
2006     011006EXPE   2378Citibank Govt Card          366.84    no receipts
2006     020806EXPE   2378Citibank Govt Card          547.44    no receipts
2006     051506/BEE   2378Citibank Govt Card        1,390.50    no receipts
2006     091206EXPE   2308Gary M. Beer                 70.80    no receipts
2006     102405EXPE   2378Citibank Govt Card           64.19    no receipts
2006     111405EXPE   2378Citibank Govt Card          132.53    no receipts
2006     121505EXPE   2378Citibank Govt Card          618.55    no receipts
2006     011006EXPE   2378Citibank Govt Card          135.20    no receipts
2006     020806EXPE   2378Citibank Govt Card          235.78    no receipts
2006     040606/BEE   2378Citibank Govt Card          444.84    no receipts
2006     051506/BEE   2378Citibank Govt Card          574.14    no receipts
2006     111405EXPE   2378Citibank Govt Card        2,975.90    no receipts
2006     121505EXPE   2378Citibank Govt Card           53.63    no receipts
2006     011006EXPE   2378Citibank Govt Card          290.87    no receipts
2006     020806EXPE   2378Citibank Govt Card          260.57    no receipts
2006     030906/BEE   2378Citibank Govt Card           41.06    no receipts
2006     040606/BEE   2378Citibank Govt Card          150.00    no receipts
2006     051506/BEE   2378Citibank Govt Card           90.90    no receipts
2007     102006EXPE   2308Gary M. Beer                151.00    no receipts
2007     103006EXPE   2308Gary M. Beer                 89.00    no receipts
2007     050707EXPE   2308Gary M. Beer                 34.00    no receipts
2007     7/10/07EXP   2308Gary M. Beer                 79.40    no receipts
2007     050707EXPE   2308Gary M. Beer                 41.25    no receipts
2007     022107EXPE   2308Gary M. Beer                137.50    no receipts

                      Subtotal                     $15,133.80

2006     121505EXPE   2378Citibank Govt Card          $49.95    no business purpose
2006     051506/BEE   2378Citibank Govt Card           15.00    no business purpose
2007     120706EXPE   2308Gary M. Beer                 19.95    no business purpose

                      Subtotal                        $84.90


                                               5
                                       SCHEDULE B-1
                                 SCHEDULE OF INADEQUATELY
                                  SUPPORTED TRANSACTIONS

Fiscal
Year     Reference               Vendor            Amount             Status of Support

2006     102405EXPE   2378Citibank Govt Card           479.90   no receipt, no business purpose
2006     111405EXPE   2378Citibank Govt Card         1,587.90   no receipt, no business purpose
2006     121505EXPE   2378Citibank Govt Card         1,029.90   no receipt, no business purpose
2006     030906/BEE   2378Citibank Govt Card           737.81   no receipt, no business purpose
2006     040606/BEE   2378Citibank Govt Card           787.14   no receipt, no business purpose
2006     051506/BEE   2378Citibank Govt Card           839.60   no receipt, no business purpose
2006     121505EXPE   2378Citibank Govt Card         1,524.63   no receipt, no business purpose
2006     040606/BEE   2378Citibank Govt Card         1,106.64   no receipt, no business purpose
2006     111405EXPE   2378Citibank Govt Card            30.00   no receipt, no business purpose
2006     030906/BEE   2378Citibank Govt Card           627.17   no receipt, no business purpose

                      Subtotal                      $8,750.69

                      Total                        $23,969.39




                                               6
                              SCHEDULE B-2
                       SCHEDULE OF UNAUTHORIZED
                            TRANSACTIONS


Fiscal                                                  Exception
Year                Vendor                  Reference    Amount       Notes
2006     2308Gary M. Beer                 091206EXPE     $517.75       A
2006     2378Citibank Govt Card           102405EXPE       190.00      A
2006     2378Citibank Govt Card           011006EXPE       387.00      A
2006     2378Citibank Govt Card           020806EXPE       118.50      A
2006     2378Citibank Govt Card           030906/BEE       394.75      A
2006     2378Citibank Govt Card           051506/BEE       610.50      A
2006     3647London Town Cars, Inc.       19015            817.00      A
2007     2308Gary M. Beer                 101706EXPE       338.69      A
2007     2308Gary M. Beer                 103006EXPE       527.37      A
2007     2308Gary M. Beer                 030607EXPE       295.31      A
2007     2308Gary M. Beer                 021207EXPE       494.87      A
2007     2308Gary M. Beer                 121207EXPE       125.65      A
2007     2308Gary M. Beer                 121207EXPE       109.00      B
2006     2378Citibank Govt Card           102405EXPE       687.32      B
2006     2378Citibank Govt Card           CHECK100-1       168.47      C
2006     2378Citibank Govt Card           121505EXPE         11.95     C
2006     2378Citibank Govt Card           CHECK100-1         11.95     C
2007     2308Gary M. Beer                 050707EXPE         80.00     D
2007     2308Gary M. Beer                 103006EXPE         18.29     E
2006     2308Gary M. Beer                 082206EXPE      (842.66)     F
2006     SI Corp/1303/81606               CB10              (29.00)    F
2006     3282 Doggett's Parking                              75.00     G
2006     3282 Doggett’s Parking                              50.00     G
2006     3282 Doggett's Parking                              50.00     G
2006     2106 Verizon Wireless                               40.30     G
2006     Nextel refund check              CB10            (202.93)     H

                                          Total         $5,045.08




                                      7
                                          SCHEDULE B-2
                                             NOTES


A.   The CEO’s expenses included car service during a number of trips. Prior to June 2006, SBV
     followed the Smithsonian travel policy. The Smithsonian travel policy states that travelers should
     select “[t]he mode of transportation that is most advantageous to SI when cost and other factors
     are considered….” and that “[t]ravel by common carrier is presumed to be the most advantageous
     in most circumstances.” The SI travel policy further states that special conveyances such as
     drivers may be authorized, but SBV provided no documentation authorizing these expenditures.
     In June 2006, SBV issued its own Travel and Expense Reporting Guidelines. This policy does not
     address car service costs other than to state that “sedan or limo service may …be used if the
     duration of the business trip makes this option less expensive than parking at the airport.” We
     noted that the CEO expended $4,817 on car service for a total of 29 transports, averaging $166
     per transport. There was no documentation in the file to indicate that the use of car service was
     less expensive than other travel options. We classified car-service costs of $4,817 as unauthorized,
     including $1,701 for which receipts were not provided and/or the business purpose was not
     identified (these costs are not included in Schedule B-1).

B.   The CEO’s expenses included charges of $796 for unused airfares, as follows:

     o       $687 paid to Citibank in October 2005 for two airline charges ($405 on August 12, 2005
             and $282 on August 15, 2005) that were credited on the same statement because the
             airfares were not used. The expense report used as the basis for the Citibank payment
             reflects the credit, but it appears that $687 was manually added back into the total when
             the expense report was reconciled to Citibank charges, causing an overpayment of $687.

     o       The CEO was reimbursed $218 in January 2007 for a roundtrip airfare to New York City
             (NYC). His expense voucher, however, shows that he took another flight to NYC (which
             was also reimbursed), and did not use the first leg of the original airfare. A note on the
             CEO’s expense voucher states that he will reimburse SBV for the unused airfare. SBV
             could provide no evidence, however, that the CEO paid SBV $109 for the unused airfare.

C.   SBV paid $180 to Citibank on October 24, 2005. This payment was comprised of $168 for a past
     due balance on the account, and a $12 transaction fee. According to correspondence in SBV’s
     files, the payment was made to avoid suspension of the CEO’s Citibank card, and there is no
     documentation to indicate that a specific charge was identified for this past due amount.
     Smithsonian travel policy stipulates that employees are responsible for paying their Citibank
     travel charges, and that these payments must be made timely. In addition, the $12 transaction fee
     was also included on the CEO’s December 15, 2005 expense report (supporting SBV’s December
     2005 payment to Citibank), resulting in a duplicate charge. We classified $192 as unauthorized.

D.   The CEO claimed actual lodging and meal costs for his travel. The SBV Travel and Expense
     Reporting Guidelines state that employees will be reimbursed for hotel accommodations at actual
     cost, and do not establish a reimbursement ceiling. Federal Travel Regulations (FTR), paragraph
     §301-11.303, however, establish maximum reimbursement at 300 percent of the per diem rate.
     The CEO’s lodging for one night in High Point, North Carolina (March 2007) was $350 per night;
     300% of the FTR lodging for that locality was $270. We classified the $80 difference as
     unauthorized.

E.   The CEO’s expenses included an $18 reimbursement for television programming on a trip to
     Budapest in September 2006. The supporting hotel receipt indicates that the charge is for “Pay

                                                 8
       TV.” SBV’s Travel and Expense Reporting Guidelines state that employees will not be
       reimbursed for in-room movies. We classified $18 as unauthorized.

F.     SBV could not identify the expenses associated with two of the CEO’s reimbursements to SBV
       totaling $(872), as follows:

       o       The amount due on the CEO’s August 22, 2006 expense voucher was reduced by $843
               for “previous credits from last billing cycle”. This was apparently the credit balance
               brought forward on his Citibank account from the previous month. This credit may, to
               some extent, be the result of the October 2005 Citibank payments described in Notes B.
               and C. above, but SBV was unable to provide documentation supporting the source of the
               $843 credit balance.

       o       The CEO reimbursed SBV $29 on August 4, 2006 – this reimbursement was credited to
               SBV’s cellular telephone expense account. SBV could not provide information on the
               specific charges that the CEO repaid.

G. SBV erroneously recorded three parking charges totaling $175 and a $40 wireless telephone charge
   to the CEO’s accounting unit in FY 2006. SBV representatives explained that these were account
   coding errors and there was no personal benefit to the CEO. We classified $215 as unauthorized.

H. SBV recorded a credit of $203 for a February 2006 refund on the CEO’s Blackberry twice on its
   accounting records – once from a credit memo and again when the refund check was received. We
   classified $(203) as unauthorized.




                                                 9
